2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. ___

_

ABDIKARIM KARRANI,
Petitioner,
V.

JETBLUE AIRWAYS CORPORATION,
A DELAWARE CORPORATION,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.l(b), being prepared in New Century Schoolbook 12 point for the text and W point for the
footnotes, and this brief contains 4563 words, excluding the parts that are exempted by Supreme
Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 26th day of April, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL
NOTARY-State
of Nein.ska
flENEE J. QOSS
My Comm. Exp. September 5, 2023

Affiant

40897

